No. 19-521
IN THE

Supreme Court of the United States
————
CHARGEPOINT, INC.,
Petitioner,
v.
SEMACONNECT, INC.,
Respondent.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit
————
BRIEF IN OPPOSITION
————
ALAN L. WHITEHURST
Counsel of Record
DEEPA ACHARYA
MARRISA R. DUCCA
QUINN EMANUEL URQUHART
& SULLIVAN, LLP
1300 I Street NW, Suite 900
Washington, D.C. 20005
(202) 538-8000
alanwhitehurst@quinnemanuel.com
deepaacharya@quinnemanuel.com
marissaducca@quinnemanuel.com
Counsel for Respondent
December 23, 2019
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTION PRESENTED
1. Whether a patent claim directed to an abstract
idea can be rendered patent eligible by adding an instruction to “apply it” to a generic machine or process?
2. Whether the Court should overrule 150 years of
precedent that holds laws of nature, natural phenomena,
and abstract ideas ineligible for patents?

(i)

ii
RULE 29.6 STATEMENT
SemaConnect, Inc. has no parent corporation. No
parent company or publically held corporation owns
10% or more of SemaConnect, Inc.’s stock.

TABLE OF CONTENTS
Page
QUESTION PRESENTED ..................................

i

RULE 29.6 STATEMENT ...................................

ii

TABLE OF AUTHORITIES ................................

v

INTRODUCTION ................................................

1

LEGAL BACKGROUND .....................................

4

STATEMENT OF THE CASE ............................

6

A. The Patents-In-Suit ..................................

6

B. The Parties and the Underlying Dispute.

10

C. The Decision Below ...................................

11

REASONS FOR DENYING THE WRIT ............

12

I. The Decision Below Correctly Applied
the Framework Set Forth in Alice ...........

12

II. The Decision Below Reflects a Straightforward Application of This Court’s
Longstanding Precedent ...........................

15

A. ChargePoint’s Claims Do Not Merely
“Involve” An Abstract Idea; But Are
“Directed” To The Abstract Idea .........

15

B. Recitation Of A “Machine” Does
Not Automatically Confer Patent
Eligibility .............................................

18

C. The
Federal
Circuit
Correctly
Considered ChargePoint’s Claims “As
A Whole” ..............................................

21

(iii)

iv
TABLE OF CONTENTS—Continued
Page
III. The Case Presents A Poor Vehicle For
Reconsidering The Judicial Exceptions
To Section 101 ...........................................

24

A. ChargePoint’s Patents Present Grave
Preemption Concerns ..........................

25

B. Any Re-Evaluation of Section 101
Should Be Reserved For Congress, Or,
Alternatively, Reserved For Other
Cases ....................................................

29

CONCLUSION ....................................................

32

v
TABLE OF AUTHORITIES
CASES

Page(s)

Alice Corp. Pty. Ltd. v. CLS Bank Int’l,
573 U.S. 208 (2014) ..................................passim
Ass’n for Molecular Pathology v.
Myriad Genetics, Inc.,
569 U.S. 576 (2013) ...................................

4

Athena Diagnostics, Inc. v.
Mayo Collaborative Servs., LLC,
927 F.3d 1333 (Fed. Cir. 2019) ................. 29, 30
Bilski v. Kappos,
561 U.S. 593 (2010) ........................... 5, 6, 18, 20
Chamberlain Group, Inc. v.
Techtronic Industries Co.,
935 F.3d 1341 (Fed. Cir. 2019) .................

18

ChargePoint, Inc. v. SemaConnect, Inc.,
No. MJG-17-3717, 2018 WL 1471685
(D. Md. Mar. 23, 2018) ..............................

10

ChargePoint, Inc. v. SemaConnect, Inc.,
920 F.3d 759 (Fed. Cir. 2019) ..................passim
Diamond v. Diehr,
450 U.S. 175 (1981) ........................... 3, 6, 16, 17
Illinois Brick Co. v. Illinois,
431 U.S. 720 (1977) ...................................

31

In re Bilski,
545 F.3d 943 (Fed. Cir. 2008) ...................

31

Mayo Collaborative Servs. v.
Prometheus Labs., Inc.,
566 U.S. 66 (2012) ....................................passim

vi
TABLE OF AUTHORITIES—Continued
Page(s)
O’Reilly v. Morse.,
56 U.S. 62 (1853) ................................. 13, 18, 20
Parker v. Flook,
437 U.S. 584 (1978) ............................. 17, 19, 20
State Street Bank & Trust Co. v.
Signature Financial Group, Inc.,
149 F.3d 1368 (Fed. Cir. 1998) .................

27

Synopsys, Inc. v. Mentor Graphics Corp.,
839 F.3d 1138 (Fed. Cir. 2016) .................

29

STATUTES
35 U.S.C. § 101 ............................................passim

INTRODUCTION
Respondent SemaConnect, Inc. (“SemaConnect”)
respectfully submits this brief in opposition to the
petition for a writ of certiorari filed by ChargePoint,
Inc. (“ChargePoint”). The Federal Circuit’s unanimous
decision affirming the district court and subsequent
decision to deny ChargePoint’s petition for rehearing
en banc reflect routine and correct applications of the
this Court’s longstanding jurisprudence on patent
eligibility under 35 U.S.C. § 101.
In determining patent eligibility, analysis properly
focuses on what a patent actually claims: does the
patent claim “building blocks of human ingenuity,” or
does it “integrate the building blocks into something
more”? Alice Corp. Pty. Ltd. v. CLS Bank Int’l, 573
U.S. 208, 217 (2014) (quotation marks and alterations
omitted). “The former ‘would risk disproportionately
tying up the use of the underlying’ ideas,” while “[t]he
latter pose[s] no comparable risk of pre-emption.” Id.
(citations omitted). This Court recently so held in
Alice, the Federal Circuit applied that teaching in
straightforward fashion, and the instant petition
supplies no warrant for this Court to revisit the wellworn ground it has already tread. Tellingly, whereas
ChargePoint’s patent claims should be the focus of the
analysis, ChargePoint runs from its patent claims. Its
petition does not present so much as a single, complete
patent claim for this Court’s review, and its appendix
omits the patents at issue here.
Once analysis focuses on the patent claims, as this
Court has held it must, the decision below reflects a
straightforward application of the framework the
Court set forth in Alice. Each claim is an abstract idea
(remote control over a network) coupled with an
instruction to “apply it” to a technological environment

2
(electrical vehicle charging stations). Every claim
limitation is either a well-understood, routine,
conventional component for connecting a machine (any
machine) to a network or a well-understood, routine,
conventional component of a charging station. The
claims thus lack an inventive concept that could
transform the abstract idea of remotely controlling an
electric vehicle charging station over a network into
something patentable. The claims do not, for example,
specify “how” network control is accomplished beyond
referring
to
generic
computer
components.
Accordingly, ChargePoint’s claims threaten to preempt
the abstract idea of network control in the field of
electric vehicle charging stations.
Instead of addressing the Alice framework or
seeking clarification on either step set forth in that
decision, ChargePoint seeks to overturn that framework altogether. First, ChargePoint argues that its
patents are valid because they claim “actual improvements to machines.” Pet. at 2; see also ChargePoint’s
Question No. 1. But no statutory category enumerated
in Section 101—including “machine”—is immune from
invalidity under Alice because the patents are
improvements. Otherwise, “patent eligibility [would]
‘depend simply on the draftsman’s art.’” Alice, 573
U.S. at 226. Ignoring Alice, ChargePoint instead cites
language from Diehr, taken out of context, to argue
that “incorporation of an abstract idea into . . . a
machine[] does not render a claim patent ineligible.”
Pet. at 3. But ChargePoint thereby misrepresents
the decision below: the Federal Circuit did not hold
ChargePoint’s claims invalid because they “incorporat[e]”
or “involve” an abstract idea; rather, the Federal
Circuit found the claims invalid because they were
“directed to” the abstract idea and lacked an inventive
concept. The abstract idea is the focus of ChargePoint’s

3
claims, and the recitation of a machine is a generic
technological environment. In contrast, the majority
in Diehr found that the claims “describe a process of
curing rubber” that happens to incorporate a mathematical formula. Diamond v. Diehr, 450 U.S. 175,
193 n.15 (1981) (disagreeing with the dissent’s
“characterization of respondents’ claims”). Here, the
abstract idea (remote control over a network) is
the invention itself—unlike in Diehr, there is no
incorporation of the abstract idea to transform the
invention into something more.
Second, ChargePoint describes “[t]he abstract-idea
exception to Section 101” as “a failed experiment” and
calls on the Court to “reevaluate” the exception by
finding that any patent meeting the statutory
language “should be eligible under Section 101.” Pet.
at 3-4; see also ChargePoint’s Question No. 2. With
this second question, ChargePoint gives away its real
game, which is to hope that precedent will yield so
as to forgive glaring deficiencies the court below
identified in the specific patent claims at issue. In
effect, ChargePoint is asking this Court to overturn
more than 150 years of stare decisis by eliminating the
judicial exceptions to Section 101. There is no reason
for this Court to revisit its longstanding statutory
interpretation. Any such statutory revision, especially
one as drastic as ChargePoint seeks, should be left for
Congress to decide. Alternatively, even if this Court
might reconsider its relevant precedent in an
appropriate case, this is not such a case. To the
contrary, the claims at issue here epitomize those this
Court has deemed problematic in their abstraction
and fundamentally ineligible for patent protection
under the Patent Act as it stands today.
For all these reasons, the petition should be denied.

4
LEGAL BACKGROUND
35 U.S.C. § 101 sets forth categories of subject
matter covered by the Patent Act:
Whoever invents or discovers any new and
useful process, machine, manufacture, or
composition of matter, or any new and useful
improvement thereof, may obtain a patent
therefor, subject to the conditions and requirements of this title.
For “more than 150 years,” however, this Court has
interpreted Section 101 to “contain[] an important
implicit exception: Laws of nature, natural phenomena, and abstract ideas are not patentable.” Alice
Corp. Pty. Ltd. v. CLS Bank Int’l, 573 U.S. 208, 216
(2014). This exception is driven by concerns over “preemption.” Id. Granting patents on these “basic tools
of scientific and technological work” “might tend to
impede innovation more than it would tend to promote
it.” Id. (quoting Ass’n for Molecular Pathology v.
Myriad Genetics, Inc., 569 U.S. 576, 589 (2013) and
Mayo Collaborative Servs. v. Prometheus Labs., Inc.,
566 U.S. 66, 71 (2012)).
This Court integrated its 150 years of jurisprudence
into a workable, two-step framework in Mayo and
further refined this framework in Alice. Under Step
One, “we determine whether the claims at issue are
directed to . . . patent-ineligible concepts,” such as
“abstract ideas.” Id. at 217. Abstract ideas include
“building block[s] of the modern economy.” Id. at 220.
Under Step Two, “we consider the elements of each
claim both individually and ‘as an ordered combination’ to determine whether the additional elements
‘transform the nature of the claim’ into a patenteligible application,” i.e., whether the claim includes

5
an “inventive concept” that ensures “‘the patent in
practice amounts to significantly more than a patent
upon’” an abstract idea. Id. at 217-218 (quoting Mayo,
566 U.S. at 72-73, 78-79). Limiting the abstract
idea “‘to a particular technological environment,’” including by reciting “a mere instruction to ‘implemen[t]’ an
abstract idea ‘on . . . a computer’” “cannot impart
patent eligibility.” Id. at 223 (quoting Bilski v.
Kappos, 561 U.S. 593, 610-11 (2010) and Mayo, 566
U.S. at 72-73, 78-79). Nor can adding “‘well-understood,
routine, conventional activities’ previously known to
the industry.” Id. at 225 (quoting Mayo, 566 U.S. at
73) (alternations omitted).
The Alice decision also stressed the importance of
putting substance over form. The result of the
analysis should not “depend simply on the draftsman’s
art,” lest the judicial exceptions to Section 101 be
“eviscerat[ed].” Id. at 224 (citations and quotation
marks omitted). As such, whether claims are “in the
physical, rather than purely conceptual, realm is
beside the point.” Id. (citations, quotation marks, and
alterations omitted). Similarly, “system claims” (a
“machine” under Section 101) are “no different” from
“method claims” (a “process” under Section 101) where
they “add nothing of substance to the underlying
abstract idea.” Id. at 226-27.
Importantly, this Court’s Alice decision did not
impose qualifying criteria for patent eligibility different from those the Court articulated in earlier cases.
Instead, Alice explained the significance of Flook and
Diehr in the context of Step Two. Thus, the Court
observed, “‘Flook stands for the proposition that the
prohibition against patenting abstract ideas cannot be
circumvented by attempting to limit the use of [the
idea] to a particular technological environment.’” Id.

6
at 222-23 (quoting Bilski, 561 U.S. at 610-11). And the
claimed invention in Diehr, “employed a ‘well-known’
mathematical equation, but it used that equation in a
process designed to solve a technological problem.” Id.
at 223 (Diehr, 450 U.S. at 177-78). While these earlier
decisions shed light on the proper application of the
Alice framework to patent claims, Alice supplied the
governing framework under which the Federal Circuit
analyzed ChargePoint’s patents and correctly found
them invalid.
STATEMENT OF THE CASE
A. The Patents-In-Suit
The patents-in-suit are directed to adding network
control to existing charging stations. Representative
claim 1 of U.S. Patent No. 8,138,715 (“’715 patent”)1
recites:
An apparatus, comprising:
a control device to turn electric supply on and
off to enable and disable charge transfer for
electric vehicles;
a transceiver to communicate requests for
charge transfer with a remote server and
receive communications from the remote
1

The other claims at issue are claim 2 of the ’715 patent;
claims 1 and 8 of U.S. Patent No. 8,432,131; claims 1 and 2 of U.S.
Patent No. 8,450,967; and claims 31 and 32 of U.S. Patent No.
7,956,570. While the Federal Circuit analyzed each claim
individually, it concluded the claims at issue are all directed
to the same abstract idea and lacked an inventive concept.
ChargePoint, Inc. v. SemaConnect, Inc., 920 F.3d 759, 773, 775
(Fed. Cir. 2019). ChargePoint’s petition does not address these
claims individually or otherwise challenge the Federal Circuit’s
reasoning on any subset of claims.

7
server via a data control unit that is connected to the remote server through a wide
area network; and
a controller, coupled with the control device
and the transceiver, to cause the control
device to turn the electric supply on based on
communication from the remote server.
The ’715 patent states the claimed “control device”
is a “solid state device” (i.e., a chip) capable of turning
an electric supply on and off. CAFC Joint Appendix2
at Appx139 (’715 patent at 7:42-44). As shown in
ChargePoint’s own infringement allegations, this is
the same function performed by a common light
switch. Id. at Appx098 (ChargePoint’s Complaint
at 18) (“control device” limitation allegedly met by
“switching” a charging station “on” or “off”). The
claimed “transceiver” can be a commercially available
“Wi-Fi® transceiver.” Id. at Appx139 (’715 patent at
8:23-24). Indeed, ChargePoint contends merely incorporating “wireless technology” and “communicating”
with another system meets this limitation, including
the “data control unit” element. Id. at Appx098
(ChargePoint’s Complaint at 18). Finally, the claimed
“controller” is any component, such as a processor,
capable of controlling the “control device” based on
communication received via the “transceiver.” Id. at
Appx098-099 (ChargePoint’s Complaint at 18-19)
(alleging “controller” limitation is met based on
evidence allegedly showing other two limitations).
Moreover, according to ChargePoint, “there are no
2

The term “CAFC Joint Appendix” refers to the appendix
submitted in connection with the appeal below; specifically, Joint
Appendix, ChargePoint, Inc. v. SemaConnect, Inc., Appeal No.
2018-1739, Dkt. 37 (filed June 19, 2018).

8
terms that require construction” because all claims
“use[] plain and ordinary language.” Id. at Appx423427 (ChargePoint’s Memorandum in Support of
Motion for Emergency Injunctive Relief at 15-19).
ChargePoint’s claims thus allegedly cover all solutions for adding network control to an electric vehicle
charging station. Of course, ChargePoint did not
invent computer networking, charging stations, or a
technical improvement to either. As such, the only
allegedly inventive aspect of these claims is the
addition of generic network control to a generic
charging station. As the named inventor of the
patents-in-suit acknowledged, “Prior to their invention by ChargePoint (then Coulomb) there were no
networked electric vehicle charging stations, although
non-networked electric vehicle charging stations had
existed for many years.” Id. at Appx179 (Declaration
of David Baxter ¶ 5) (emphasis added). Moreover,
ChargePoint’s counsel repeatedly confirmed this
understanding during the February 6, 2018 hearing at
the district court level on SemaConnect’s Motion
to Dismiss. Id. at Appx798-799 (admitting that the
claimed “network-enabled charging station” is different from prior art charging stations “[p]recisely”
because “it’s network enabled”); id. at Appx800 (“[Y]es,
the novelty of that physical device is how it is
controlled and what goes into controlling it.”); id. at
Appx808 (admitting that ChargePoint is “claiming
that what’s novel is the ability to do this controlling
remotely by [ChargePoint’s] system”); id. at Appx809
(admitting that “the essence of [ChargePoint’s] invention is a system where these things can be controlled
remotely and not by somebody just physically at the
charging station”); id. at Appx839 (“We invented
networked, remote-controllable charging stations for
electric vehicles.”).
Before the Federal Circuit,

9
ChargePoint again reiterated that the “essence” of its
patents “is to enable electric-vehicle charging stations
to ‘be controlled remotely.’” ChargePoint’s Opening
Brief, ChargePoint, Inc. v. SemaConnect, Inc., Appeal
No. 2018-1739, Dkt. 27, at 42 (filed April 19, 2018).
That ChargePoint claimed nothing more than an
abstract idea (network control) and an instruction to
apply this abstract idea to a particular technological
environment (charging stations) is apparent from
the claims themselves. Replacing a single word in
representative claim 1 of the ’715 patent would allow
ChargePoint to claim any machine (e.g., a coffee
maker) that could be connected to a network:
1. An apparatus, comprising
a control device to turn electric supply on and
off to enable and disable charge transfer for
electric vehicle [coffee maker/dishwasher/
dryer/hot water heater];
a transceiver to communicate requests for
charge transfer with a remote server and
receive communications from the remote server
via a data control unit that is connected to the
remote server through a wide area network;
and
a controller, coupled with the control device
and the transceiver, to cause the control
device to turn the electric supply on based on
communication from the remote server.
ChargePoint thus did not invent an improved
charging station. Instead, its claims take the idea of
network control and instruct one to “apply it” to a
charging station, without specifying any inventive
networking solution, any inventive charging stations,

10
or, indeed, any details regarding how either concept
would need to be implemented or modified in order to
achieve ChargePoint’s claimed inventions.
B. The Parties and the Underlying Dispute
The current dispute arises from Volkswagen’s settlement of its diesel emissions scandal. As part of this
settlement, Volkswagen agreed to invest $2 billion in
electric vehicle charging stations in order to encourage
the use of electric vehicles. Volkswagen created a
wholly-owned subsidiary called Electrify America to
oversee and administer this project.
On March 24, 2017, Electrify America invited
several companies, including SemaConnect and
ChargePoint, to bid on the first phase of this project.
Electrify America ultimately awarded contracts to
three companies: SemaConnect, Greenlots, and EV
Connect. Unhappy with Electrify America’s decision,
ChargePoint filed its District Court complaint against
SemaConnect, the smallest of the three companies,
alleging that SemaConnect infringed the ’715, ’570,
’131, and ’967 patents.
The district court denied ChargePoint’s motion
for emergency injunctive relief and set an expedited
schedule for SemaConnect’s motion to dismiss under
35 U.S.C. § 101. The district court then found all
claims at issue invalid for claiming patent ineligible
subject matter. ChargePoint, Inc. v. SemaConnect,
Inc., No. MJG-17-3717, 2018 WL 1471685 (D. Md.
Mar. 23, 2018). When ChargePoint appealed, a
unanimous panel affirmed. All four judges to consider
the matter have thus agreed that the claims at issue
are ineligible for patent protection under settled law.

11
C. The Decision Below
The Federal Circuit panel analyzed each of the
claims-in-suit individually and concluded, unanimously,
that their “essence” of remotely controlling a device
using a network is an abstract idea under this Court’s
Alice framework. As the Federal Circuit explained in
connection with Step One:
[T]he eight claims on appeal . . . are all
directed to the abstract idea of communicating over a network for device interaction.
Communication over a network for that purpose has been and continues to be a “building
block of the modern economy.” . . . [T]his “is
an ‘abstract idea’ beyond the scope of § 101”,
and the asserted claims are directed to that
abstract idea.
ChargePoint, 920 F.3d at 773 (emphasis added).
The panel also analyzed all claim limitations (individually and as an ordered combination) in connection
with Step Two of the Alice framework, but concluded
the only allegedly “inventive” aspect of the claims was
the abstract idea itself:
[T]he alleged “inventive concept” that solves
problems identified in the field is that the
charging stations are network-controlled.
But network control is the abstract idea itself,
and “a claimed invention’s use of the ineligible
concept to which it is directed cannot supply
the inventive concept that renders the invention ‘significantly more’ than that ineligible
concept.”
Id. at 774 (emphasis added).

12
Based on these findings, the Federal Circuit affirmed
the District Court’s decision invalidating all claims-insuit. Id. at 777. ChargePoint filed a petition for
rehearing en banc, but the Federal Circuit denied its
petition. ChargePoint, Inc. v. SemaConnect, Inc., Appeal
No. 2018-1739, Dkt. 73 (Fed. Cir. July 23, 2019).
REASONS FOR DENYING THE WRIT
I. THE DECISION BELOW CORRECTLY
APPLIED THE FRAMEWORK SET FORTH
IN ALICE
The Federal Circuit’s decision below reflects a
correct, straightforward application of this Court’s
framework on patent eligibility set forth in Alice.
None of the four judges who considered the matter at
the trial and appellate stages had any disagreement
on the dispositive point. And the only amicus who
supports ChargePoint’s instant bid for certiorari is an
individual, a patent practitioner, who does not speak
for any larger organization
The decision below follows inexorably from Alice.
Under Alice Step One, the Federal Circuit first concluded that the claims “involve” the abstract idea of
“communication over a network.” ChargePoint, 920
F.3d at 766. Quoting this Court’s Alice and Bilski
decisions, the court below held that “[c]ommunication
over a network . . . has been and continues to be a
‘building block of the modern economy’” and thus is an
abstract idea. Id. at 773. The Federal Circuit
did not stop there, however, but further determined
the claims were “directed to” this abstract idea by
ascertaining their “focus.” Id. at 767. ChargePoint
does not and cannot contest this conclusion. Time and
again, ChargePoint admitted that the “essence” of its
claims is enabling a pre-existing charging station “to

13
‘be controlled remotely.’” ChargePoint’s Opening
Brief, ChargePoint, Inc. v. SemaConnect, Inc., Appeal
No. 2018-1739, Dkt. 27, at 42 (filed April 19, 2018); see
also CAFC Joint Appendix at Appx809 (District Court
Hearing Tr. at 43:10-13) (admitting that “the essence
of [ChargePoint’s] invention is a system where these
things can be controlled remotely and not by somebody
just physically at the charging station”). And the
concept of remote control is little different from the
idea of communicating “at any distance” using technology “however developed,” which this Court found
“too broad” more than 150 years earlier in O’Reilly v.
Morse. 56 U.S. 62, 112-13 (1853). The Federal Circuit
thus correctly concluded ChargePoint’s claims were not
“directed to” an improved charging station or any
specific solution for introducing network control.
Instead, ChargePoint sought to claim the abstract idea
of network control in the context of electric vehicle
charging stations.
Under Alice Step Two, the Federal Circuit marched
through all limitations of all claims at issue, both
individually and as an ordered combination, before
concluding that “the alleged ‘inventive concept’ that
solves problems” identified by ChargePoint is the very
same “ineligible concept” identified in Step One.
ChargePoint, 920 F.3d at 774; see also id. (“This . . .
merely mirrors the abstract idea itself and thus cannot
supply an inventive concept.”). This is consistent with
Alice, where the Court specified that a claim “must
include ‘additional features’ to ensure ‘that the [claim]
is more than a drafting effort designed to monopolize
the [abstract idea].’” Alice, 573 U.S. at 221 (emphasis
added). If the abstract idea itself can supply an
inventive concept under Step Two of the Alice framework, then patentees would be able to monopolize
abstract ideas that are not “‘well-understood, routine,

14
conventional activities’ previously known to the
industry.” Id. at 225 (quoting Mayo, 566 U.S. at 73)
(alternations omitted). Accordingly, the Federal Circuit
correctly concluded that “network communication is
the only possible inventive concept” and that “the
abstract idea itself” “cannot supply the inventive
concept.” ChargePoint, 920 F.3d at 775.
Even beyond the Federal Circuit’s analysis,
ChargePoint’s claims parallel the claims held ineligible in Alice. In Alice, this Court addressed application
of an abstract idea to a generic computer, finding that
“if a patent’s recitation of a computer amounts to a
mere instruction to ‘implemen[t]’ an abstract idea
‘on . . . a computer,’ that addition cannot impart patent
eligibility.” Alice, 573 U.S. at 223 (quoting Mayo, 566
U.S. at 84) (citation omitted). Here, ChargePoint
sought to patent the abstract idea of network control
by adding an instruction to “apply it” to a particular
technological environment—a generic charging station.
ChargePoint contends that its claims are not limited
to any specific solution for achieving network control
(much less an innovative solution) and purport to
cover all charging stations embodying this abstract
idea. ChargePoint’s recitation of a charging station
and other generic hardware thus does not “provide[]
any ‘practical assurance that the process is more than
a drafting effort designed to monopolize the [abstract
idea] itself.’” See id at 224. (quoting Mayo, 566 U.S. at
77); see also id. at 226 (“recit[ing] a handful of generic
computer components configured to implement the
same idea” does not confer patent eligibility).
In sum, the Federal Circuit’s application of Alice is
beyond reproach, as is its ultimate conclusion that
ChargePoint’s claims are patent ineligible. Any contrary view threatens to grant ChargePoint a monopoly

15
over all use of the abstract idea of network control
in the technological environment of electric vehicle
charging stations. No such monopoly should be
entertained, nor should the instant petition.
II. THE DECISION BELOW REFLECTS
A STRAIGHTFORWARD APPLICATION
OF THIS COURT’S LONGSTANDING
PRECEDENT
ChargePoint does not substantively discuss Alice or
argue the Federal Circuit misapplied either step of the
Alice framework. Instead, ChargePoint attempts to
undermine that framework altogether by invoking
earlier decisions of this Court and arguing the Federal
Circuit’s analysis (while consistent with Alice) contravenes those earlier cases. Contrary to ChargePoint’s
account, however, there is no inconsistency between
the Federal Circuit’s decision and this Court’s older
precedents.
A. ChargePoint’s Claims Do Not Merely
“Involve” An Abstract Idea; But Are
“Directed” To The Abstract Idea
ChargePoint faults the Federal Circuit for invaliding its claims because they “involve” or “incorporate”
an abstract idea. Pet. at 18 (emphasis added; citations
omitted):
[T]he Federal Circuit observed that
[ChargePoint’s] claims also ‘involve[] an
abstract idea . . . . This involvement of an
abstract idea, according to the court, rendered
the claims patent ineligible under Section 101.
This holding conflicts directly with the
Court’s decision in Diamond v. Diehr and the
long-standing principles it embodies.”

16
In this important respect, ChargePoint mischaracterizes the Federal Circuit’s decision. The court below
expressly acknowledged that “involv[ing]” an abstract
idea is “not enough”; instead, courts must “determine
whether th[e] patent-ineligible concept is what the
claim is ‘directed to.’” ChargePoint, 920 F.3d at 766
(emphasis added). The Federal Circuit performed this
analysis precisely as instructed by this Court and
concluded, “looking at the problem identified in the
patent, as well as the way the patent describes the
invention, . . . the invention of the patent is nothing
more than the abstract idea of communication over a
network for interacting with a device, applied to the
context of electric vehicle charging stations.” Id. at
768; see also id. at 770 (“[T]he claim language and the
specification indicate that the focus of the claim is on
the abstract idea of network communication for device
interaction.”). In other words, the Federal Circuit did
not invalidate ChargePoint’s claims merely because
they “involve” an abstract idea; it deemed these claims
invalid because they are “directed to” that abstract
idea.
The Federal Circuit’s decision here is consistent
with this Court’s decision in Diehr. The claims in
Diehr specified “a process for molding raw, uncured
synthetic rubber into cured precision products.” 450
U.S. at 177. Respondents in that case “characterize[d]
their contribution to the art to reside in the process of
constantly measuring the actual temperature inside
the mold,” which was “new in the art” and addressed
a “shortcoming” in “conventional industry practice.”
Id. at 177-79. The Court agreed with Respondents’
characterization: “We view respondents’ claims as
nothing more than a process for molding rubber products and not as an attempt to patent a mathematical
formula.” Id. at 191. This conclusion was supported

17
by the claim language itself, which requires “initiating
an interval timer . . . upon the closure of the [rubbermolding] press,” “constantly determining the temperature . . . of the mold,” “repetitively calculating” an
equation based on this data, “repetitively comparing”
the result of the calculation with the “elapsed time,”
and finally “opening the press automatically when a
said comparison indicates equivalence.” Id. at 179
n.5. The claims in Diehr thus did not merely present
the abstract mathematical formula coupled with an
instruction to “apply it” to “a rubber-molding press.”
Instead, the claims set forth an innovative molding
process from start-to-finish that leveraged the formula
as part of a specific implementation. When the claims
were “considered as a whole,” they were “drawn to an
industrial process for the molding of rubber products.”
Id. at 192.
In contrast, ChargePoint simply took a the abstract
idea of network control and added it to a generic
electric vehicle charging station. Under Diehr and
Alice alike, this is insufficient to confer patent eligibility. This Court’s Flook decision is especially on point
in dooming the claims at issue. In Flook, the claims
recited a series of steps for calculating and updating
an “alarm limit,” and only the preamble specified these
calculation were “involved in a process [for] catalytic
chemical conversion of hydrocarbons.” Parker v. Flook,
437 U.S. 584, 596-97 (1978). Unlike in Diehr, none
of the claim limitations in Flook specified any
implementation for obtaining data from the specific
process or what effect the updated alarm limit has
on the overall process. In other words, calculating
the alarm limit was not integrated into the claimed
process, and simply replacing a few words in the
preamble would have rendered the claim applicable to
other processes. The same is true here, where replac-

18
ing a single word in ChargePoint’s claim 1 of the ’715
patent (“vehicle”) would allow that claim to cover
any other electronic machine (e.g., a coffee maker).
The core holding of Flook thus applies in force to
ChargePoint’s patents:
“the prohibition against
patenting abstract ideas cannot be circumvented by
attempting to limit the use of [the idea] to a particular
technological environment.” Alice, 573 U.S. at 222
(quoting Bilski, 561 U.S. at 610-11).
ChargePoint’s claims are thus distinguishable from
the claims found patent eligible in Diehr and more
akin to the claims found invalid in Flook. ChargePoint
cannot monopolize the abstract idea of network control
by appending a generic electric vehicle charging station.
B. Recitation Of A “Machine” Does Not
Automatically Confer Patent Eligibility
ChargePoint also argues its patents ought to be
found patent eligible based on this Court’s precedent
allegedly “distinguish[ing] between an ineligible ‘patent
for a principle’ and ‘a machine embodying a principle.’”
Pet. at 19 (quoting Morse, 56 U.S. at 1153); see also
Pet. at 21 (“The Federal Circuit recognized that
ChargePoint’s inventions ‘build[] a better machine,’
which under the plain terms of Section 101 should be
enough.”) (citation omitted).4 But ChargePoint’s alleged
3

The quoted portion of Morse was not part of this Court’s
holding. Instead, it was a quote from the earlier Neilson v.
Harford decision delivered in the English Court of Exchequer.
4

ChargePoint’s citation to Chamberlain Group, Inc. v.
Techtronic Industries Co., 935 F.3d 1341, 1349 (Fed. Cir. 2019) is
misplaced, as this petition is not an appeal from the Chamberlain
decision. See Pet. at 21-22. ChargePoint’s speculation regarding
fictional inventions from a movie, Back to the Future, is similarly
irrelevant. See id. at 22. There is no dispute a claim directed to
a functioning flux capacitor would be patent eligible, and the

19
distinction oversimplifies this Court’s precedent. A
claim to a generic “machine embodying a principle,”
without any specificity to protect the “principle” from
preemption, is just as invalid as a claim to the
“principle” itself.
In Flook this Court warned that protection against
monopolizing abstract ideas cannot be circumvented
by “the draftsman’s art.” Flook, 437 U.S. at 593; see
also id. at 590 (“A competent draftsman could attach
some form of post-solution activity to almost any
mathematical formula . . . . The concept of patentable
subject matter under § 101 is not ‘like a nose of wax
which may be turned and twisted in any direction . . . .’”).
Consistent with its warning, the Court required “additional features that provide practical assurance that
the process is more than a drafting effort designed to
monopolize the law of nature itself.” Mayo, 566 U.S.
at 77. Thus, in Alice, merely reciting generic computer
components or presenting claims as being directed to
systems did not confer patent eligibility. Alice, 573
U.S. at 224, 226-27 (quoting Flook, 437 U.S. at 590,
593). In Alice, “[t]here [wa]s no dispute that a
computer is a tangible system (in § 101 terms, a
‘machine),” but the Court nonetheless found “[t]he fact
that a computer ‘necessarily exist[s] in the physical,
rather than purely conceptual, realm’ is beside the
point.’” Id. at 224.
Accordingly, merely appending a “particular machine”
to an otherwise abstract idea, as ChargePoint has
done here by adding limitations associated with
same remains true for Dr. Brown’s improved DeLorean with a
plutonium-fueled nuclear reactor. The abstract idea of “time
travel” is patent ineligible, however, even when coupled with an
instruction to “apply it” to an electric vehicle charging station.

20
generic “electric-vehicle charging stations,” is insufficient to confer patent eligibility. See Pet. at 18. The
abstract idea of network control, coupled with an
instruction to “apply it” to an electric-vehicle charging
station, is no more patent eligible than the abstract
mathematical formula in Flook coupled with an
instruction to “apply it” to “catalytic chemical conversion of hydrocarbons.” See Flook, 437 U.S. at 586.
ChargePoint should not be permitted to patent and
thus monopolize the concept of network control across
an entire technological environment without contributing
any innovative solution to networking or charging
station technology other than an instruction to apply
the former to the latter. Identifying a “particular
machine” in the claims—just like a particular process
in Flook—does not obviate this core preemption
concern, and instead is nothing more than a drafting
effort to circumvent this Court’s jurisprudence on
Section 101 “‘by attempting to limit the use of [the idea]
to a particular technological environment.’” Alice, 573
U.S. at 222-23 (quoting Bilski, 561 U.S. at 610-11.
The outcome below also accords with the Court’s
earlier decision in Morse. There, the Court held that
the “[e]ighth” claim found invalid did not limit the
claimed invention “to the specific machinery, or parts
of machinery, described in the foregoing specification
and claims” and instead sought to monopolize the
abstract idea of “making or printing intelligible characters, letters, or signs, at any distances” using
electro-magnetism “however developed.” 56 U.S. at
112. But even the eighth claim required some machinery to “mak[e] or print[] intelligible characters, letters,
or signs.” The issue in Morse was thus not that
the eighth claim did not require any machinery, but
that it was not limited to “specific machinery” for
implementing the abstract idea.

21
The Court’s discussion of steam power is informative:
No one, we suppose will maintain that Fulton
could have taken out a patent for his
invention of propelling vessels by steam,
describing the process and machinery he
used, and claimed under it the exclusive right
to use the motive power of steam, however
developed, for the purpose of propelling vessels.
It can hardly be supposed that under such a
patent he could have prevented the use of the
improved machinery which science has since
introduced; although the motive power is
steam, and the result is the propulsion of
vessels.
Id. at 113 (emphasis added). The Court thus observed
that a claim directed to an abstract idea (“the motive
power of steam”) remains patent ineligible even when
applied to a particular machine (“vessels”) when the
claim is broad enough to cover the abstract idea
“however developed.” The same reasoning applies
here. ChargePoint may have claimed the abstract idea
of network control when applied to electric vehicle
charging stations, but its claims are not limited to any
specific network implementation, and thus remain
patent ineligible.
C. The Federal Circuit Correctly Considered ChargePoint’s Claims “As A Whole”
Finally, ChargePoint contends the Federal Circuit
“isolate[d] the supposedly ‘new’ aspects of ChargePoint’s
invention, dismissing the old aspects, and then
determining the new parts abstract ideas that are
ineligible for patenting.” Pet. at 20. That, too, is
wrong.

22
First, ChargePoint’s argument seeks to manufacture
dispute where there is none. The analysis cited in
ChargePoint’s petition relates to the Federal Circuit’s
effort in Step One of the Alice framework to ascertain
the “focus” of ChargePoint’s patents, i.e., whether
they were “directed to” this abstract idea. ChargePoint,
920 F.3d at 767-68; see also Mayo, 566 U.S. at 72
(describing Supreme Court precedent as “insist[ing]
that a process that focuses upon the use of [a patent
ineligible concept] also contain other elements . . .
sometimes referred to as an ‘inventive concept’”)
(emphasis added). Yet, far from denying this is in fact
the “focus” of its patents, ChargePoint has repeatedly
admitted that the “essence” of its patents “is to enable
electric-vehicle charging stations to ‘be controlled
remotely.’” ChargePoint’s Opening Brief, ChargePoint,
Inc. v. SemaConnect, Inc., Appeal No. 2018-1739, Dkt.
27, at 42 (filed April 19, 2018); see also CAFC Joint
Appendix at Appx809 (District Court Hearing Tr. at
43:10-13) (admitting that “the essence of [ChargePoint’s]
invention is a system where these things can be
controlled remotely and not by somebody just physically at the charging station”). Thus, regardless of
the analysis employed by the Federal Circuit, the
“essence” the Federal Circuit identified is the same
“essence” that ChargePoint has repeatedly trumpeted.
It is unsurprising that the Federal Circuit through its
analysis reached the same conclusion ChargePoint
itself has as to the focus of its patent claims.
Second, ChargePoint errs in its description of the
Federal Circuit’s methodology in Step One of the Alice
framework. The Federal Circuit first identified the
abstract idea at issue and then looked to the specification to ascertain the “focus” of ChargePoint’s patents,
i.e., whether they were “directed to” this abstract idea.
ChargePoint, 920 F.3d at 767-68; see also Mayo, 566

23
U.S. at 72 (describing Supreme Court precedent as
“insist[ing] that a process that focuses upon the use
of [a patent ineligible concept] also contain other
elements . . . sometimes referred to as an ‘inventive
concept’”) (emphasis added). Based on this review, the
Federal Circuit concluded that “the problem perceived
by the patentee was a lack of a communication
network for these charging stations, which limited the
ability to efficiently operate them from a business
perspective”; it further concluded that there was no
“suggest[ion] that the charging station itself is
improved from a technical perspective.” ChargePoint,
920 F.3d at 768 (emphasis added). The Federal Circuit
then “return[ed] to the claim language itself to
consider the extent to which the claim would preempt
building blocks of science and technology.” Id. at 768.
Based on this analysis, the Federal Circuit concluded
that “the claim language and the specification indicate
that the focus of the claim is on the abstract idea of
network communication for device interaction.” Id. at
770; see also id. (“[T]he inventors here had the good
idea to add networking capabilities to existing charging stations to facilitate various business interactions.
But that is where they stopped, and that is all they
patented.”) (emphasis added).
The Federal Circuit thus did not dismiss any portion
of ChargePoint’s claims for including “old aspects,” as
ChargePoint now contends. Instead, the Federal
Circuit correctly analyzed the claims and specification
to ascertain the “focus” of ChargePoint’s claims and
whether they are as a whole “directed to” an abstract
idea. The Federal Circuit sought to understand “the
problem facing the inventor” and “what the patent
describes as the invention.” ChargePoint, 920 F.3d at
767. Whether individual claim elements were actually
“new” or “old” was irrelevant to this analysis.

24
III. THE CASE PRESENTS A POOR VEHICLE
FOR RECONSIDERING THE JUDICIAL
EXCEPTIONS TO SECTION 101
Section II of ChargePoint’s petition asks the Court
to re-evaluate 150 years of stare decisis and upend this
Court’s precedent denying patent eligibility to abstract
claims. Pet. at 23-24. Section III of ChargePoint’s
petition then launches into a frontal assault on
this Court’s Alice decision and the Federal Circuit’s
interpretation thereof based on cherry-picked statistics
and counsel’s policy arguments, unsupported by any
amicus save one lone patent practitioner. None of
these arguments begins to justify erasing 150 years of
this Court’s precedent in the absence of any action by
Congress, which can always revise the Patent Act as
and if it sees fit, but has declined to do so. And even if
this Court were to reconsider its precedent on patent
eligibility, it should await the right vehicle to do so.
Cf. Brief of United States as Amicus Curiae, HP Inc.
v. Berkheimer, Appeal No. 18-415, at 10 (arguing
“[t]his case . . . would be an unsuitable vehicle to
provide guidance” on the substantive standards for
patent eligibility because “[t]he parties disagree as to
what the claimed invention comprises”); Brief of
United States as Amicus Curiae, Hikma Pharmas.
USA Inc. v. Vanda Pharmas. Inc., Appeal No. 18-817,
at 8 (arguing “[t]his case . . . is not an optimal vehicle
for bringing greater clarification because the court of
appeals majority arrived at the correct result”).
ChargePoint’s patent claims present an especially
poor vehicle for present purposes. Four judges have
uniformly agreed that this is an easy case for denying
patent eligibility under Section 101. To the extent
ChargePoint would here challenge that judicial
consensus surrounding its claimed inventions, its

25
arguments reduce to a fact-bound dispute that is
confined to particulars of this case. The petition
therefore supplies a poor vehicle for re-evaluating the
framework set forth in Alice.
A. ChargePoint’s Patents Present Grave
Preemption Concerns
ChargePoint’s patents should not prompt this Court
to reexamine its interpretation of 35 U.S.C. § 101 for
the simple reason that ChargePoint’s patents exemplify
the exact danger the Court’s patent eligibility analysis
was designed to protect against.
The Court’s jurisprudence on Section 101 is
designed to protect laws of nature, natural phenomena, and abstract ideas from preemption, and thereby,
ensure “basic tools of scientific and technological
work” remain available to all. Alice, 573 U.S. at 216.
Otherwise, patents “might tend to impede innovation
more than it would tend to promote it.” Id. The
relevant inquiry “is a relative one: how much future
innovation is foreclosed relative to the contribution of
the inventor.” Mayo, 566 U.S. at 88.
Here, ChargePoint’s only alleged invention comes
down to the idea of adding network control to preexisting charging stations. According to ChargePoint,
it is now impossible to make, sell, or use a networkcontrolled charging station without infringing its
patents. Tellingly, ChargePoint’s infringement allegations do not specifically identify a single hardware
component—they do not name the make or model of
one modem, chip, conductor, switch, or outlet—in the
accused products, but instead characterize the accused
products entirely based on their functionalities. See
CAFC Joint Appendix at Appx098-099 (ChargePoint’s
Complaint at 18-19). In fact, ChargePoint is accusing

26
of infringement charging stations that have not
even been built. See id. Appx087 (ChargePoint’s
Complaint ¶ 18). The fact that ChargePoint somehow
knows that non-existent charging stations—that have
not even been built yet—will inevitably infringe its
patents alone demonstrates that the patents seek to
monopolize the entire industry.5
Finding ChargePoint’s claims valid would “’tend
to impede innovation more than it would tend to
promote it.’” See Alice, 573 U.S. at 216. ChargePoint’s
infringement theories are based on the accused product’s
alleged “smart grid integration” which allows “chargers
to operate with more solar and wind energy as it comes
onto the grid.” CAFC Joint Appendix at Appx098-099
(ChargePoint’s Complaint at 18-19). ChargePoint’s
specification, however, is entirely silent on the use of
solar, wind, and other clean energy sources, demonstrating that its inventors did not foresee that
charging stations might be able to use network
communication to leverage newly available power
sources. In effect, ChargePoint seeks to exclude future
generations of innovation in green technology based on
its effort to monopolize the basic concept of network
control. ChargePoint’s monopolization efforts are the

5

The only charging stations ChargePoint identified as allegedly
not infringing its patents are “[n]on-networked charging stations.”
Id. at Appx327 (Declaration of Dr. Zygmunt Haas ¶ 62). Given
the ubiquity of computer networks, this alleged non-infringement
alternative does little to protect against ChargePoint’s efforts
to monopolize the charging station industry. See Alice, 573 U.S.
at 223-24 (holding that, “[g]iven the ubiquity of computers,
“wholly generic computer implementation” does not “provide[]
any ‘practical assurance’” against monopolization of the abstract
idea).

27
exact type of conduct this Court’s decisions in Alice,
Mayo, Bilski, Flook, and Morse guard against.
Indeed, given the ubiquity of computer networks in
today’s world, finding ChargePoint’s patents valid
would effectively grant ChargePoint a monopoly over
the entire charging station industry. Even worse, such
a decision would set precedent harmful to other
industries and future technology. As illustrated
above, the structure of ChargePoint’s patent claims
allows them to be applied to any machine by simply
replacing a single word, opening the door to similar
monopolization of network control in the context of
other technological environments. And nothing would
prevent another entity from monopolizing artificial
intelligence in connection with operating any machine
simply by adding a claim element directed to “make a
decision using AI” as one of the steps performed by
that machine.
None of ChargePoint’s arguments mitigate the
damage that would result from allowing its patents
to stand. ChargePoint cites various statistics on
the rate at which patents are invalidated under this
Court’s Alice decision. Pet. at 25, 27-30. But
invalidating bad patent claims that contravene Alice
should not be lamented. By no means do these
statistics indicate that Alice or the Federal Circuit’s
decision here needs to be overturned. Rather, they
confirm that Alice has proved to be effective in
tightening the overly-relaxed standard for patent
eligibility that had formerly found currency with the
Federal Circuit. See, e.g., State Street Bank & Trust
Co. v. Signature Financial Group, Inc., 149 F.3d 1368,
1374 (Fed. Cir. 1998) (finding any claim patent eligible
as long as “it produces ‘a useful, concrete and tangible
result,’” even if that result is just momentarily fixing

28
a final share price “for recording and reporting
purposes”). Such overly broad patents should have
never issued, and the patent office and court’s efforts
to now invalidate such patents should be commended.
ChargePoint’s other policy arguments reflect pure
speculation by counsel. ChargePoint thus argues that
alleged uncertainty in the lower court’s application of
Alice will “harm innovation.” Pet. at 25-28. This
argument has no bearing on the law applicable to
the present case. Indeed granting certiorari here
cannot help resolve any alleged uncertainty, because
ChargePoint’s patents do not present a close case that
might serve to clarify the law. Instead, as explained
above, the claims at issue reflect a straightforward
application of Alice: limiting the abstract idea of
network control to the technological environment of
charging stations cannot confer patent eligibility.
ChargePoint also contends that the status quo “tend[s]
to favor large companies with multi-billion-dollar
research and development budgets,” but it does not
cite anything in support of that argument. In fact, the
opposite is equally, if not more, likely: under Alice,
large companies cannot use patents on abstract ideas
to block small competitors from entering the same
field. Ironically, that is exactly what ChargePoint is
trying to do here, as it seeks to leverage its status as
an early entrant to exclude a smaller competitor from
the electric vehicle charging station industry. See
CAFC Joint Appendix at Appx083-086 (Complaint
¶¶ 5, 14) (contrasting ChargePoint’s network of “tens
of thousands of stations that have been used more
than 16 million times” with “SemaConnect’s annual
revenue [of] around $1 million”).
This Court’s 150-year jurisprudence on patent eligibility has been driven by a concern with protecting the

29
basic building blocks of research and our economy
from monopolization. The whole thrust of this Court’s
precedent is to foreclose patents like those at issue
here from inhibiting and retarding entire industries
such as the electric vehicle charging station industry.
Overturning all of those prior cases to find ChargePoint’s
patents valid would eviscerate vital protection, inject
uncertainty, and invite abuse.
B. Any Re-Evaluation of Section 101
Should Be Reserved For Congress, Or,
Alternatively, Reserved For Other
Cases
Finally, ChargePoint’s petition cites various other
recent Federal Circuit decisions and even legislative
efforts to potentially amend 35 U.S.C. § 101. Pet. at
25 (citing Synopsys, Inc. v. Mentor Graphics Corp., 839
F.3d 1138 (Fed. Cir. 2016)); Pet. at 25 (citing Athena
Diagnostics, Inc. v. Mayo Collaborative Servs., LLC,
927 F.3d 1333 (Fed. Cir. 2019) (en banc); Pet. at 27
(citing testimony from a June Senate hearing on
potential amendments to Section 101). None of these
citations support granting ChargePoint’s petition for
writ of certiorari. To the contrary, they confirm that
any statutory revision at this point can and should
come from Congress.
The Court already denied the petition for writ of
certiorari filed in Synopsys. See Case No. 2015-1599.
And, contrary to ChargePoint’s assertion, there is
nothing inconsistent with refusing to import disclosure in the specification into the claims (as the Federal
Circuit did in Synopsys) and looking to the
specification to identify the focus of the claims (as the
Federal Circuit did here).

30
The Federal Circuit’s decision in Athena has no
connection to this case. Athena may be closely watched
by the medical industry, garnering eleven briefs
amicus curiae, but ChargePoint’s petition is not—it
received a single brief amicus curiae from one patent
practitioner. Moreover, whereas the original Athena
decision prompted a dissent, and the en banc petition
fractured the Federal Circuit and prompted eight
different opinions, the Federal Circuit in this case was
unanimous in affirming the district court’s determination that ChargePoint’s patents are invalid. Finally,
Athena addresses the application of this Court’s Alice
and Mayo decision to “medical diagnostic patents,”
and whether such patents can ever be distinguished
from the patents found invalid in Mayo. Athena thus
poses questions specific to medical diagnostic patents:


“[w]hether a new and specific method of diagnosing a medical condition is patent-eligible
subject matter” (see Petition for a Writ of
Certiorari, Case No. 2017-2508); and



“[w]hether patent claims to a method of
diagnosis are ineligible under 35 U.S.C. § 101”
(see Brief in Opposition, Case No. 2017-2508).

Accordingly, even if Court decides to grant certiorari
in Athena, the outcome of that decision will have no
impact on the software-related patents at issue here.
Finally, ChargePoint’s citation to Congressional
proposals to amend Section 101 only counsels in favor
of denying ChargePoint’s petition. Suffice to note
that Congress has yet to adopt ChargePoint’s desired
revisions and remains free to do so as and if it may
please. Congress is better suited to receive testimony
from industry and academics and evaluate competing
policy considerations, as would be necessary in decid-

31
ing whether or not to overrule this Court’s prior
interpretation of Section 101.
Especially while
Congress is right now considering possible revisions to
Section 101, this Court should not wade into choppy
legislative waters to inject judicial revisions. To the
extent policy counsels in favor of revising Section 101,
these revisions should be expressly reflected in the
statute and thus made by the legislative branch, and
not by judicial re-interpretation of the current statute.
This Court is rightly loathe to overturn its statutory
constructions, precisely because Congress can always
correct any precedent it deems offensive. See Illinois
Brick Co. v. Illinois, 431 U.S. 720, 736 (1977) (“[W]e
must bear in mind that considerations of stare decisis
weigh heavily in the area of statutory construction,
where Congress is free to change this Court’s interpretation of this legislation.”). It follows a fortiori that
the Court should not overturn a settled construction of
Section 101 that Congress has left in place for over 150
years.6 And the Court certainly should not entertain
doing so in a posture where Congress is actively
considering revisions that stand to moot or supersede
any decision the Court might issue on the merits. In
multiple respects, therefore, this case presents a poor
vehicle for the Court to revisit its longstanding
precedent governing ineligibility for patent protections under Section 101.

6

The statutory language being interpreted has itself remained
essentially since 1793. See In re Bilski, 545 F.3d 943, 966 (Fed.
Cir. 2008) (Dyk,, J., concurring).

32
CONCLUSION
The petition should be denied.
Respectfully submitted,
ALAN L. WHITEHURST
Counsel of Record
DEEPA ACHARYA
MARRISA R. DUCCA
QUINN EMANUEL URQUHART
& SULLIVAN, LLP
1300 I Street NW, Suite 900
Washington, D.C. 20005
(202) 538-8000
alanwhitehurst@quinnemanuel.com
deepaacharya@quinnemanuel.com
marissaducca@quinnemanuel.com
Counsel for Respondent
December 23, 2019

